I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

A L L M E N DI N G E R, C H RI S TI A N M.
P etiti o n er
vs.

N o:

2 0- 8 2 1 1

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
J u n e 0 8, 2 0 2 1
c c:
EJ H U R S T II
1890 S T A R S H O O T P A R K W A Y
S T E 170
P M B 371
L E XI N G T O N, K Y 4 0 5 0 9

